CERTIFICATE OF COMPLIANCE
Case No.
Caption: JPMorgan Chase Bank, National
Association v. Ross R. Caliguri a/k/a Ross
Caliguri
As required by Supreme Court Rule 33. l(h),
I certify that the document contains 7,131 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33. l(d).
I declare under penalty of perjury that the
foregoing is true and correct.
Executed on June 15, 2021

Vittorio Virili
Record Press, Inc.

Sworn to before me on
June 15, 2021
NADIA R. OSWALD HAMID
Notary Public, State of New York
No. 0lOS6101366
Qualified in Kings County
Commission Expires November 10, 2023

Notary Public

